Van |

2 CocdE

+ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B picts contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-500
AMEER SIDDIQUI,
Petitioner,
v.
NETJETS AVIATION, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33:1(h), I certify that the BRIEF IN OPPOSITION
FOR RESPONDENT NETJETS AVIATION, INC. in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 4791 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : Lu Qudraw- .
My Commission Expires Nov 24, 2020 G

Notary Public Affiant 39431

 
